IN THE

Supreme Court of the United States
JAYREN WYNN,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent,
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
Pursuant to the provisions of Rule 39, the petitioner, JAYREN WYNN, moves to file the
attached petition for certiorari without prepayment of costs and to proceed in forma pauperis.
The petitioner was represented in the United States District Court for the District of Connecticut
and in the United States Court of Appeals for the Second Circuit by counsel appointed pursuant
to the Criminal Justice Act, 18 U.S.C. ยง 3006A. His financial condition has not changed
materially.

Respectfully submitted,
THE PETITIONER,
Jayren Wynn
OFFICE OF THE FEDERAL DEFENDER
Dated: September 17, 2021
_
_
James P. Maguire
Assistant Federal Defender
265 Church Street, Suite 702
New Haven, CT 06510
Phone: 203-498-4200
Fax: 203-498-4207
Email: James_Maguire @fd.org

